c.

Case l:20-cv-00831-NBF Document 12 Filed 09/22/20 Page 1 of 4

eXHI&ir 2A PARTi.
M tl)t ®mteb H>tatti Court of jftberal Claims
No. 20-831C
(Filed: September 22, 2020)
NOT FOR PUBLICATION

ANGELA JOHNSON, et al.,
Pro Se Plaintiffs,
v.
THE UNITED STATES,
Defendant.

)
)
)
)
)
)
)
)
)
)

Pro Se; RCFC 12(b)(1); State Courts;
State Agencies

ORDER DISMISSING CASE
Pro se litigants Angela Johnson and Audrey Johnson filed a complaint in this court
alleging “seven grievances” against local and state courts in Oklahoma and a Tennessee
child support agency in connection with criminal, divorce, and custody proceedings. See
generally CompL, ECF No. 1-2. The Johnsons seek $900 million as damages for these
grievances. See id., ECF No. 1-1.
On August 25, 2020, defendant the United States (government) filed a motion to
dismiss the Johnsons’ complaint for lack of subject matter jurisdiction under Rule
12(b)(1) of the Rules of the United States Court of Federal Claims. The government
argues that the Johnsons’ claims against local and state courts and agencies fall outside of
this court’s jurisdiction under the Tucker Act, 28 U.S.C. § 1491. Mot. at 1-2, ECF No. 8.

Case l:20-cv-00831-NBF Document 12 Filed 09/22/20 Page 2 of 4

^

• ; V? 7 i •

■j

The Johnsons respond that as United States citizens, they may seek relief from this
court. Resp. at 1-2, ECF No. 10. The Johnsons note that they listed several federal
agencies on the cover sheet of their complaint, including the Department of Justice and
Department of Health and Human Services. Id. at 2, 4. They argue that they have been
wronged by the Oklahoma courts and Tennessee child support enforcement agencies, and
that “the United States Court of Federal Claims is the only appropriate court for us to
pursue Justice and Expiation.” Id. at 4.
In reply, the government reiterates that the Johnsons’ claims do not fit within this
court’s jurisdiction, and that the Johnsons’ response confirms that they are raising family
law matters under state law. Reply at 142, ECF No. 11.
This court’s subject matter jurisdiction is limited by the Tucker Act, which places
within this court’s jurisdiction “any claim against the United States founded either upon
i

the Constitution, or any act of Congress j or any regulation of an executive department, or
i

upon any express or implied contract with the United States, or for liquidated or
i

unliquidated damages in cases not sounding in tort.” 28 U.S.C. § 1491(a)(1). To fall
within this court’s jurisdiction, a plaintiff must make a claim for money damages against
the United States based on an express or implied contract with the United States or a
money-mandating constitutional provision, statute, or regulation. See United States v.
Navajo Nation, 556 U.S. 287, 289-90 (2009); United States v. Mitchell, 463 U.S. 206,
215-18 (1983). Under the Tucker Act, this court does not have jurisdiction over claims
against any party other than the United States. Trevino v. United States, 557 F. App’x
995, 998 (Fed. Cir. 2014) (citing United\States v. Sherwood, 312 U.S. 584, 588 (1941)).
2

I
j

k

\

■a.

Case l:20-cv-00831-NBF Document 12 Filed 09/22/20 Page 3 of 4

When evaluating whether the Johnsons’ claims fall within this court’s limited
jurisdiction, the Johnsons’ complaint is held to a less stringent standard than that of a
plaintiff represented by an attorney; however, this leniency does not relieve the Johnsons
of this court’s jurisdictional requirements. See, e.g., Harris v. United States, 113 Fed. Cl.
290, 292 (2013).
Applying these standards, the court must hold that the Johnsons’ claims fall
outside of this court’s limited jurisdiction. The “grievances” contained in-the Johnsons’
complaint appear to raise claims against state and local courts and agencies in Oklahoma
and Tennessee. The first “grievance,” for example, is made in connection with a
protective order “in Tulsa Criminal Court.” Compl., ECF No. 1-2 at 2. The seventh
“grievance” involves a Tennessee child support agency. Id. at 6. The remaining
“grievances” appear to be associated with decisions by the Oklahoma courts in family
law matters; for example, the sixth grievance is related to a decision by the “Tulsa
District Court” regarding an “offset” to “child support.” Id. at 2-6. The attachments to
the complaint likewise include filings from state agencies or courts, not federal agencies.
Id. at 11-13. Moreover, in their response, the Johnsons confirm that they are seeking
justice based on the actions of “the Oklahoma Supreme Court, the [Tulsa] District Court
regarding IRS and Child Support issues, [and] ... the [Tennessee] Enforcement Agency
communicating with the Oklahoma Enforcement Agency” regarding family law matters
under state law. Resp. at 4; see also id. at 2 (arguing “[o]ne of the seven grievances in
this case is the rolling over of a criminal case into a divorce law case”).

3

Case l:20-cv-00831-NBF Document 12 Filed 09/22/20 Page 4 of 4

This court, however, lacks jurisdiction over claims founded on state law, Sounders
v. S.C. Pub. Serv. Auth., 497 F.3d 1303,11307 (Fed. Cir. 2007), or claims against “states,
localities, state and local government officials, state courts, state prisons, or state
employees,” Trevino, 557 F. App’x at 998:_This_court also does notjiave “jurisdiction to
review other judges’ decisions, even when a plaintiff couches its challenge of those
decisions as a claim for damages against the United States.” Jones v. United Slates, 655
F. AppA 839, 84.1 (Fed. Cir. 2016) (citing Joshua v. United States, 17 F.3d 378, 380
(Fed. Cir. 1994)). Finally, the Johnsons! d° n°t point to any contract with the United
States or money-mandating constitutional provision, statute, or regulation on which they
base their claims. See Navajo Nation, 556 U.S. at 289-90. The court therefore lacks
jurisdiction over the Johnsons’ “grievanjces” against state courts and agencies under the
Tucker Act. As such, the court must grant the government’s motion to dismiss, and
dismiss the Johnsons’ complaint for laclj: of subject matter jurisdiction
For the foregoing reasons, the government’s motion to dismiss, ECF No. 8, is
GRANTED and the complaint is DISMISSED for lack of subject matter jurisdiction.
The motion for leave to proceed in formja pauperis, ECF No. 2, is GRANTED for the
limited purposes of this order. The Clerk is directed to enter judgment accordingly.

IT IS SO ORDERED.
s/Afaacu
JlxetUme
NANCY B. FIRESTONE
Senior Judge

4

Case l:20-cv-00831-NBF Document 13 Filed 09/22/20 Page 1 of 1

3fn tfje Shuteb states* Court of Jfeireral Claims;
No. 20-831 C
Filed: September 22, 2020
ANGELA JOHNSON and
AUDREY A. JOHNSON-DUNCAN
v.

JUDGMENT

UNITED STATES

Pursuant to the court’s Order, filed September 22, 2020, granting defendant’s motion to
dismiss
IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that plaintiffs’
complaint is dismissed for lack of subject-matter jurisdiction.

Lisa L. Reyes
Clerk of Court
By:

A. Stunlen
Deputy Clerk

NOTE: As to appeal to the United States Court of Appeals for the Federal Circuit, 60 days from
this date, see RCFC 58.1, re number of copies and listing of all plaintiffs. Filing fee is $505.00.

Case: 21-1083

Document: 11

Page: 1

Filed: 01/21/2021

NOTE: This order is nonprecedential.

UntteiJ H>tate£ Court ot Appeal#
for tfje Jfeberal Circuit
ANGELA JOHNSON, AUDREY A. JOHNSONDUNCAN,
Plaintiffs-Appellants
v.

UNITED STATES,
Defendant-Appellee
2021-1083
Appeal from the United States Court of Federal Claims
in No. l:20-cv-00831-NBF, Senior Judge Nancy B. Fire­
stone.
ON MOTION
Per Curiam.
ORDER
The United States moves to summarily affirm the
United States Court of Federal Claims’ judgment dismiss­
ing Angela Johnson and Audrey A. Johnson-Duncan’s com­
plaint for lack of jurisdiction. The appellants have not
timely responded. Because the Court of Federal Claims’
decision was clearly correct, we grant the motion.

Case: 21-1083

2

Document: 11

Page: 2

Filed: 01/21/2021

JOHNSON v. US

The appellants filed the underlying complaint at the
Court of Federal Claims alleging various wrongdoings by
local and state courts and agencies in connection with crim­
inal, divorce, and custody proceedings. The complaint fur­
ther alleged that agencies of the United States owed a
responsibility to protect people from such conduct. The
Court of Federal Claims dismissed the complaint for lack
of jurisdiction. The appellants have timely appealed.
The Tucker Act gives the Court of Federal Claims “ju­
risdiction to render judgment upon any claim against the
United States founded either upon the Constitution, or any
Act of Congress or any regulation of an executive depart­
ment, or upon any express or implied contract with the
United States, or for liquidated or unliquidated damages in
cases not sounding in tort.” 28 U.S.C. § 1491(a)(1). To es­
tablish such jurisdiction, plaintiffs must identify a source
of substantive law that “can fairly be interpreted as man­
dating compensation by the Federal Government.” United
States v. Navajo Nation, 556 U.S. 287, 290 (2009) (citations
and internal quotation marks omitted).
The Court of Federal Claims was clearly correct that
the appellants failed to cite such a source of law in their
complaint. The court was also clearly correct that it does
not have jurisdiction to review claims against state agen­
cies and state courts. See Trevino v. United States, 557 F.
App’x 995, 998 (Fed. Cir. 2014). More generally, the Court
of Federal Claims lacks authority to hear any claims
“sounding in tort.” § 1491(a)(1). The Court of Federal
Claims was therefore also clearly correct that it lacked ju­
risdiction over any assertion that certain federal agencies
were negligent fo,r not taking actions to protect the appel­
lants.
For these reasons, we affirm the underlying judgment
by summary order. See Joshua v. United States, 17 F.3d
378, 380 (Fed. Cir. 1994) (holding that summary disposi­
tion is appropriate when “the position of one party is so

Case: 21-1083

Document: 11

Page: 3

Filed: 01/21/2021

3

JOHNSON v. US

clearly correct” that “no substantial question regarding the
outcome of the appeal exists” (citation omitted)).
Accordingly,
It Is Ordered That:
(1) The United States’ motion is granted. The judg­
ment of the Court of Federal Claims is summarily affirmed.
(2) Any other pending motions are denied.
(3) Each side shall bear its own costs.

For the Court
January 21. 2021
Date

s24

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Additional material
from this filing is
available in the
Clerk's Office.

